Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  MARKETING MATERIALS FOR 

   MEDICARE PRESCRIPTION 

        DRUG PLANS





                    Daniel R. Levinson

                     Inspector General 


                     September 2008

                     OEI-01-06-00050

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ      E X E C U T I V E                      S U M M A R Y



                      OBJECTIVES
                      1. To assess the Centers for Medicare & Medicaid Services’ (CMS)
                      oversight of marketing materials for stand-alone Medicare prescription
                      drug plans (PDP).

                      2. To determine the extent to which marketing materials for PDPs meet
                      CMS guidelines.


                      BACKGROUND
                      The Medicare Prescription Drug, Improvement, and Modernization Act
                      of 2003 added voluntary outpatient prescription drug coverage to
                      Medicare. Private health insurance organizations (hereafter referred to
                      as sponsors) contract with CMS to offer PDPs. Sponsors distribute
                      marketing materials, which CMS defines as materials that promote a
                      PDP; provide enrollment information; or explain its benefits, rules, and
                      covered services. Marketing materials include advertisements,
                      comprehensive formularies, enrollment forms, pharmacy directories,
                      and summaries of benefits.

                      CMS’s Medicare Marketing Guidelines (hereafter referred to as the
                      guidelines) specify what marketing materials must include when
                      describing PDP coverage. To help ensure accuracy and expedite the
                      review process for certain marketing materials, CMS created model
                      documents, which are uniform texts that contain pertinent information.
                      CMS also requires PDP sponsors to use standardized language for the
                      summary of benefits. Before PDP sponsors distribute marketing
                      materials, they must submit them to CMS under one of two review
                      processes. Under the standard review process, CMS staff manually
                      review marketing materials. Under the file & use process, CMS staff do
                      not review materials; rather, PDP sponsors attest that the marketing
                      materials comply with CMS guidelines. The guidelines also outline
                      other oversight activities for CMS to monitor marketing materials, such
                      as requiring identification numbers on materials.

                      We assessed CMS’s oversight of PDP materials based on the oversight
                      strategies outlined in its guidelines. We used CMS’s guidelines,
                      regulations, responses to oral and written questions, and data from
                      CMS’s Health Plan Management System (HPMS) to assess its oversight
                      of the materials. To determine whether marketing materials met
                      CMS’s guidelines, we reviewed marketing materials from a stratified
                      simple random sample of 115 PDPs offered in 2007. All estimates in our

    OEI-01-06-00050   MARKETING MATERIALS   FOR   MEDICARE PRESCRIPTION DRUG PLANS         i
E   X   E   C   U     T   I   V   E       S   U     M      M   A   R   Y



                              report are projectable to the population of PDPs for each type of
                              material. We also reviewed model documents using these same review
                              guides.


                              FINDINGS
                              CMS’s oversight for PDP marketing materials is limited. CMS promotes
                              its file & use process but did not complete a retrospective review of the
                              2006 file & use marketing materials until April 2008. Although CMS
                              completed standard reviews of marketing materials on a timely basis, the
                              reviews lack consistency across regions. None of the performance audits
                              that CMS had conducted at the time of our review examined elements
                              pertaining to marketing materials. We were unable to determine whether
                              CMS has conducted marketplace reviews. Additionally, identification
                              numbers from 45 percent of the materials we reviewed failed to match the
                              numbers in the HPMS. Because the identification numbers do not
                              uniformly identify which materials are written in non-English languages
                              or alternative formats, CMS lacks a systematic way to track them.
                              CMS’s model documents are not consistent with its guidelines,
                              resulting in problems with PDP marketing materials. The
                              standardized language for summaries of benefits omits aspects of
                              required information on the low income subsidy; accordingly, nearly all
                              summaries of benefits lack this information. The model enrollment
                              form also lacks key information required by the guidelines.
                              Consequently, almost all enrollment forms fail to include this key
                              information. Most enrollment forms also lack the required statement on
                              the availability of the form in alternative formats, which is also missing
                              on the model enrollment form. In addition, many marketing materials
                              lack hours of operation and phone numbers for deaf persons (TTY/TDD)
                              where model documents omit these elements. Lastly, the guidelines
                              and model documents do not match in other aspects.
                              Overall, PDP marketing materials did not meet CMS guidelines.
                              Eighty-five percent of marketing materials failed to meet at least one
                              element of CMS’s guidelines. These elements reflected the array of
                              requirements in the guidelines, which ranged from details about PDP
                              benefits and rules to requirements for font size for footnotes. In
                              addition to problems with marketing materials that stem from model
                              documents, 79 percent of advertisements with pharmacy cobranding
                              failed to include a required statement that other pharmacies are also
                              available. Forty-two percent of pharmacy directories did not describe


    OEI-01-06-00050           MARKETING MATERIALS   FOR   MEDICARE PRESCRIPTION DRUG PLANS          ii
E   X   E   C   U     T   I   V   E       S   U     M      M   A   R   Y



                              the process for a beneficiary to obtain a prescription if mail order service
                              is delayed, as required. Seventeen percent of comprehensive
                              formularies, which are organized by therapeutic class, failed to include
                              an alphabetical index of drugs, as required, potentially hindering
                              beneficiaries’ ability to find information about their drugs.


                              RECOMMENDATIONS
                              To improve CMS oversight and ensure that PDPs provide accurate
                              marketing materials, we recommend that CMS:
                              Revise model documents to ensure consistency between model
                              documents and guidelines. By ensuring that the model materials and
                              the standardized language for summaries of benefits follow CMS
                              guidelines, CMS would provide more accurate guidance to plans and
                              ultimately beneficiaries.
                              Develop protocols for the review of marketing materials. These
                              protocols would assist CMS’s reviewers in ensuring that marketing
                              materials include all required elements.
                              Conduct and complete more frequent retrospective reviews of
                              file & use materials to monitor these materials. Performing
                              retrospective reviews on a more frequent basis would provide CMS with
                              more timely information to ensure that file & use materials meet the
                              guidelines.
                              Enforce the use of the current tracking system and enhance it to
                              include an identifier for marketing materials written in non-English
                              languages and alternative formats. These steps would increase CMS’s
                              ability to track specific materials, which would help CMS oversee them
                              and respond to complaints about them.


                              AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                              RESPONSE
                              CMS concurred with all four of our recommendations. In its comments,
                              CMS noted that it had implemented steps to improve its oversight of
                              marketing materials and identified seven areas for improving the
                              review process for marketing materials.

                              CMS also noted that it had made corrections to its model enrollment
                              form in June 2007 and had completed its first retrospective review of
                              file & use materials. We amended the report to indicate that CMS had


    OEI-01-06-00050           MARKETING MATERIALS   FOR   MEDICARE PRESCRIPTION DRUG PLANS            iii
E X E C U T I V E                S U        M M A R Y


                    completed these tasks but that both were outside the period of our
                    review.

                    In addition, CMS noted that it focuses its review of marketing materials
                    on elements it considers most critical to beneficiary understanding, and
                    not on all elements contained in the guidelines. However, CMS’s
                    guidelines do not distinguish between critical and noncritical elements.
                    Therefore, we reviewed marketing materials based on the requirements
                    for each type of material detailed in CMS’s marketing and enrollment
                    guidelines.




  OEI-01-06-00050   MARKETING MATERIALS   FOR   MEDICARE PRESCRIPTION DRUG PLANS         iv
Δ   T A BB LL EE         OO FF         CC OO NN T T E E N N T T S S



           EXECUTIVE SUMMARY ..................................... i




           INTRODUCTION ........................................... 1




           FINDINGS ................................................. 9

                     CMS’s oversight is limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                     CMS’s model documents are not consistent with guidelines. . . . . 12 


                     PDP marketing materials did not consistently meet guidelines. . 17 




           R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                     Agency Comments and Office of Inspector General Response . . . 21 




           A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

                     A: 	Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 


                     B: 	Estimates and Confidence Intervals. . . . . . . . . . . . . . . . . . . . . 26 


                     C:	 Number of Elements Not Meeting CMS’s Guidelines in 

                         Each Type of Marketing Material . . . . . . . . . . . . . . . . . . . . . . 29 


                     D: 	Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31 




           A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36 

B   A I N NN TE RR O 2D NU DC TP I A O G NE
Δ

                      OBJECTIVES
                      1. To assess the Centers for Medicare & Medicaid Services’ (CMS)
                      oversight of marketing materials for stand-alone Medicare prescription
                      drug plans (PDP).

                      2. To determine the extent to which marketing materials for PDPs meet
                      CMS guidelines.


                      BACKGROUND
                      Medicare Prescription Drug Plans
                      The Medicare Prescription Drug, Improvement, and Modernization Act
                      of 2003 (P.L. No. 108-173) added voluntary outpatient prescription drug
                      coverage to Medicare, known as Medicare Part D. Private health
                      insurance organizations (hereafter referred to as sponsors) contract with
                      CMS to offer Part D benefits. Beneficiaries may obtain prescription
                      drug coverage through PDPs or Medicare Advantage-prescription drug
                      plans (MA-PD) that offer integrated coverage for both prescription
                      drugs and other health care. This evaluation focuses on PDPs only.
                      PDP Marketing Materials
                      CMS defines marketing materials as informational materials that
                      promote a PDP, provide enrollment information, explain its benefits,
                      describe its rules, explain how services are covered, or communicate
                      with an individual regarding various membership policies, procedures,
                      and rules.1 Regulations require that materials provide beneficiaries
                      with an “[a]dequate written description of rules (including any
                      limitations on the providers from whom services can be obtained),
                      procedures, basic benefits and services, and fees and other charges” and
                      “[a]ny other information necessary to enable beneficiaries to make an
                      informed decision about enrollment.”2 (See Table 1 on page 2 for a
                      description of the selected marketing materials reviewed in this
                      evaluation.)




                          1   42 CFR § 423.50(b). 

                          2   42 CFR §§ 423.50(d)(1)(i) & (iii).




    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   1
I N T R O D            U C T       I O N 





            TABLE 1           Type of Material                             Purpose
      Description of        Advertisements                                 Used to attract potential enrollees. Includes materials such as
       Types of PDP                                                        newspaper advertisements, marketing posters, and fliers
          Marketing         Summary of Benefits                            Provides general information on PDP guidelines and benefits
 Materials Reviewed
                            Comprehensive Formulary                        Conveys details about covered drugs and the level of coverage
  in This Evaluation
                            Enrollment Form                                Used by beneficiaries to enroll in PDPs

                            Pharmacy Directory                             Lists pharmacies where enrollees can have their prescriptions
                                                                           filled

                          Source: CMS Medicare Marketing Guidelines, 2007.



                          Guidelines for PDP Marketing Materials
                          The Medicare Marketing Guidelines (hereafter referred to as the
                          Medicare Marketing Guidelines or guidelines) represent “CMS’s
                          current, official position on marketing policy and operational
                          instructions” for PDPs.3 The guidelines include sections on marketing
                          material content, including disclaimers and formatting requirements.
                          They also outline the process for CMS’s review of marketing materials.

                          The guidelines specify the language, definitions, and explanations that
                          marketing materials must include when describing plan coverage.
                          Materials must include some of these elements verbatim. Among these,
                          the guidelines detail specific information for preenrollment and
                          postenrollment materials. Preenrollment materials refer to marketing
                          materials used by beneficiaries before enrolling in a PDP, and
                          postenrollment materials refer to marketing materials that provide
                          information to beneficiaries enrolled in a PDP.

                          Furthermore, CMS includes additional guidelines for enrollment forms
                          in “PDP Guidance—Eligibility, Enrollment, and Disenrollment”
                          (hereafter referred to as Enrollment Guidelines). The Enrollment
                          Guidelines include statements that the beneficiary consents to upon
                          enrolling in the PDP.4 The Enrollment Guidelines also provide a list of



                             3 CMS, “Medicare Marketing Guidelines for: Medicare Advantage Plans, Medicare

                          Advantage Prescription Drug Plans, Prescription Drug Plans, and 1876 Cost Plans”
                          (2nd Revision: July 25, 2006), (hereafter referred to as “Medicare Marketing Guidelines”),
                          p. 1.
                             4 CMS, “PDP Guidance—Eligibility, Enrollment, and Disenrollment” (hereafter referred
                          to as “Enrollment Guidelines”), section 30.1. In June 2007, CMS issued a revised version of
                          the Enrollment Guidelines. We reference the version that was available in March 2007
                          because we used this iteration during our review.



     OEI-01-06-00050      M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                                      2
I N T R O D        U C T             I O N


                    data elements that must be collected to complete the beneficiary’s
                    enrollment into the PDP.
                    Model Marketing Materials
                    To help ensure accuracy and expedite the review process for certain
                    marketing materials, CMS created model documents, which are uniform
                    texts that contain pertinent information. To qualify for an expedited
                    review, sponsors may modify the model document only with specifics
                    about the individual PDP’s benefits and plan information. CMS offers
                    models for the enrollment form, comprehensive formulary, and
                    pharmacy directory, among other types of marketing materials. CMS
                    does not offer models for advertisements.
                    In addition to offering model documents, CMS requires PDP sponsors to
                    use standardized language for the summary of benefits (hereafter
                    referred to as the standardized SB).5 Sponsors can automatically
                    generate a standardized SB for their PDPs through CMS’s Health Plan
                    Management System (HPMS). The HPMS combines boilerplate
                    language with specific information from a PDP’s plan benefit package to
                    create an individual summary of benefits.

                    In this report, we use the term “model documents” to refer to the
                    available model materials and the standardized SB. We will refer to
                    each individual document specifically when needed throughout the
                    report.
                    CMS Oversight for Marketing Materials: Review Processes
                    CMS has two types of review processes, described below. The type of
                    review process for a material depends on the type of material and
                    whether the material uses unmodified model documents (see Figure 1
                    on page 5).

                    Standard Review. Under the standard review process, CMS regional
                    office staff manually review PDP marketing materials. The standard
                    review period may be either 10 days or 45 days:
                    •	 10-day standard review period. Sponsors may submit marketing
                       materials for the 10-day review period if the sponsor uses CMS’s
                       model documents and does not modify the language or sequence




                        5   CMS, “Medicare Marketing Guidelines,” pp. 15 and 35.



 OEI-01-06-00050    M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   3
I N T R O D        U C T              I O N


                       used in the model documents (other than specifics about the
                       individual PDP’s benefits and plan information).6
                    • 45-day standard review period. Sponsors must use this period for
                      marketing materials if they modify the language used in model
                      documents or if they do not use model documents for materials.7
                    After the 10- or 45-day period has passed, a sponsor may distribute the
                    material unless CMS notifies the sponsor that it has disapproved the
                    material.8 Marketing materials that CMS has neither approved nor
                    disapproved by the close of the review period are deemed approved.9
                    File & Use. CMS’s file & use certification system (hereafter, referred to
                    as file & use) streamlines the process for PDP sponsors to submit and
                    distribute certain types of materials.10 Eligible materials include all
                    forms of advertising, pharmacy directories, and formularies, among
                    others.11 To submit materials as file & use, PDP sponsors may modify
                    the model document only with specifics about the individual PDP’s
                    benefits and plan information. Sponsors must attest, when submitting
                    materials, that they comply with the guidelines.12 Under file & use,
                    PDP sponsors must submit materials to CMS 5 days before
                    disseminating them. CMS regional office staff do not review file & use
                    materials at the time of submission. Rather, CMS reviews the
                    materials retrospectively.

                    CMS strongly encourages PDP sponsors to use file & use for qualified
                    materials.13 PDP sponsors may choose to have CMS review marketing
                    materials under the standard review process. However, CMS requires




                        6 CMS, “Medicare Marketing Guidelines,” p. 97. 

                        7   CMS, “Medicare Marketing Guidelines,” p. 96. 

                        8   Ibid. 

                        9   Ibid. 

                        10 CMS also offers an additional review process called file & use eligibility, which further 

                    streamlines the review of marketing materials. To qualify for this process, PDP sponsors
                    “must have submitted at least eighteen months of reviewable marketing materials,” among
                    other criteria. Because Part D had been in existence for fewer than 18 months at the time
                    that we initiated this evaluation, no PDP sponsor was qualified for this process. See CMS,
                    “Medicare Marketing Guidelines,” p. 103.
                        11
                        PDP sponsors may provide beneficiaries with either abridged or comprehensive
                    formularies. See CMS, “Medicare Marketing Guidelines,” p. 59.
                        12 CMS,       “Medicare Marketing Guidelines,” pp. 100–101.
                        13 CMS, “Medicare Marketing Guidelines,” p. 98.




 OEI-01-06-00050    M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                     4
 I N T R O D          U C T              I O N


                        PDP sponsors to use file & use for at least 90 percent of materials that
                        qualify for this process.14

        FIGURE 1                                                            Type of marketing material
Flow Chart of the
 Review Process
                                    Advertisements*                      Pharmacy directory,             Enrollment form,
for Selected PDP                                                         Comprehensive formulary         Summary of benefits
       Marketing
        Materials
                                    Can be submitted as                    Use unmodified model              Use unmodified model
                                    file & use 5 days prior                documents?                        documents?
                                    to distribution

                                                                            Yes                       No                  Yes


                                                                   Can be submitted as            45-day                10-day
                                                                   file & use 5 days prior        standard              standard
                                                                   to distribution or 10-day      review                review
                                                                   standard review

                          * Model documents are not offered for advertisements.



                      Source: Office of Inspector General analysis of the PDP marketing material review process, 2007.



                        CMS Oversight for Marketing Materials: Additional Activities
                        The guidelines outline additional oversight activities used by CMS to
                        monitor marketing materials. These activities include:

                        Retrospective review. CMS oversees file & use materials through 

                        retrospective reviews, which may be conducted semiannually.15

                        Marketplace review. CMS may review marketing materials under three
                        circumstances: use by or in the media; as part of complaint
                        investigations; and during scheduled onsite visits to sponsors for
                        contract compliance monitoring.16
                        Audits. CMS conducts periodic compliance audits of sponsors’ 

                        operations. CMS’s “PDP Sponsor Audit Guide Version 1.0,”

                        April 10, 2006 (hereafter referred to as the PDP Sponsor Audit Guide) 

                        details the elements that may be covered in the audits. Six elements 





                            14   CMS, “Medicare Marketing Guidelines,” p. 99.
                            15   CMS, “Medicare Marketing Guidelines,” pp. 98–99.
                            16   CMS, “Medicare Marketing Guidelines,” p. 109.



    OEI-01-06-00050     M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                                 5
I N T R O D        U C T             I O N


                    within the “Marketing and Beneficiary Information” chapter pertain to
                    marketing materials.17
                    Oversight of materials in other languages and alternative formats.
                    Sponsors that offer marketing materials in non-English languages and
                    alternative formats (such as Braille) must base them on approved
                    marketing materials written in English.18 After CMS approves the
                    English version of a marketing material, sponsors submit the
                    non-English or alternative format material to CMS along with a letter
                    attesting that the material includes the same content as the English
                    version.19
                    To oversee materials in non-English languages and alternative formats,
                    CMS conducts a verification review of the materials and also reviews
                    these materials on an “as needed basis.”20
                    Marketing Material Identification System. CMS requires plan sponsors to
                    include a unique identification number (hereafter referred to as
                    material ID) on each piece of marketing material.21 The material ID
                    includes the sponsor’s contract number, a series of digits of the sponsor’s
                    choosing, and the date of its approval, if applicable.22 The material ID
                    enables CMS to track each piece of marketing material in the
                    marketplace and in the HPMS.
                    Previous Office of Inspector General Work on Medicare Marketing Materials
                    In 2000, we found that few approved marketing materials for Medicare
                    + Choice plans were in full compliance with the guidelines and almost
                    half of the materials were not consumer friendly.23 We recommended
                    that CMS update the marketing guidelines, provide accurate model



                       17 CMS, “PDP Sponsor Audit Guide,” Chapter 3. These elements, MR01, 02, 03, 07, 08,

                    and 10, pertain to submission and distribution of marketing materials, file & use marketing
                    materials, requirements for preenrollment materials, marketing materials for significant
                    non-English-speaking populations, marketing to people with disabilities, and requirements
                    for postenrollment materials.
                        18 CMS, “Medicare Marketing Guidelines,” p. 115.
                        19 Ibid.
                        20   CMS, “Medicare Marketing Guidelines,” p. 93.
                        21   CMS, “Medicare Marketing Guidelines,” p. 107.
                     22 CMS does not require an approval date for file & use materials. See CMS, “Medicare
                    Marketing Guidelines,” p. 108.
                      23 Department of Health and Human Services (HHS), Office of the Inspector General

                    (OIG), “Medicare Managed Care—1998 Marketing Materials,” OEI-03-98-00271,
                    February 2000. Medicare + Choice was the previous name for Medicare Advantage plans.



 OEI-01-06-00050    M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS               6
I N T R O D        U C T             I O N


                    documents, develop protocols for CMS staff to use when reviewing
                    marketing materials, and track reviews consistently across regions.

                    In 2005, we found that 39 of 62 marketing materials for the temporary
                    Medicare drug discount card lacked required information.24 Missing
                    information concerned eligibility, program disclaimers, choice of cards,
                    and comparative drug card information.

                    In 2006, we found that although marketing materials for Medicare
                    Advantage (MA) plans generally met CMS requirements, materials
                    lacked some required information.25 The missing information included
                    CMS requirements concerning limitations to prescription drug benefits,
                    most notably language concerning prescription drug formularies.


                    METHODOLOGY
                    Scope
                    We assessed CMS’s oversight of PDP materials based on the oversight
                    strategies outlined in its guidelines. We also determined whether five
                    types of marketing materials from a sample of PDPs offered in calendar
                    year 2007 met CMS’s guidelines. These materials include selected
                    advertising materials (newspaper advertisements, marketing posters,
                    and fliers), summaries of benefits, comprehensive formularies,
                    enrollment forms, and pharmacy directories. These represent materials
                    that would be used by beneficiaries prior to and after enrolling in a
                    PDP.
                    Data Sources and Analysis
                    Our evaluation relied on four sources: CMS marketing guidelines,
                    Enrollment Guidelines, and regulations; information from CMS
                    officials; data from the HPMS; and 2007 PDP marketing materials. We
                    used CMS’s guidelines, regulations, responses to oral and written
                    questions, and data from the HPMS to assess its oversight of the
                    materials. We also used the HPMS data to assess timeframes for
                    marketing material reviews and material ID numbers.



                        24
                         HHS, OIG, “Assessment of Sponsors’ Materials Under the Temporary Medicare-
                    Approved Drug Discount Card Program,” OEI-05-04-00190, October 2005. The temporary
                    Medicare-Approved drug discount card program provided Medicare beneficiaries with
                    access to discounted prescription drugs from June 2004–December 2005 while CMS
                    implemented Medicare Part D.
                      25 HHS, OIG, “Medicare Advantage Marketing Materials for Calendar Year 2005,”

                    OEI-01-05-00130, August 2006.



 OEI-01-06-00050    M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS          7
I N T R O D        U C T             I O N


                    To determine whether marketing materials met CMS’s guidelines, we
                    reviewed materials from a stratified simple random sample of
                    115 PDPs. All estimates in our report are projectable to the population
                    of PDPs for each type of material. We created and used review guides
                    based on CMS marketing guidelines and regulations. The review guides
                    divided CMS’s guidelines into separate elements for each material. The
                    number of elements in each review guide varied by type of material
                    because the number of specific guidelines varied for each material. We
                    also reviewed model documents using these same review guides.

                    Lastly, we received training in March 2007 from staff in CMS’s New
                    York regional office. This training covered an overview of the
                    marketing guidelines, guidelines for specific types of marketing
                    materials, and the region’s process for reviewing marketing materials.

                    For a detailed methodology, see Appendix A.
                    Limitations
                    This study did not assess CMS’s oversight of marketing practices, such
                    as tactics used by insurance brokers when enrolling beneficiaries in
                    PDPs and MA plans. Nor did it review the oversight or marketing
                    materials for Special Needs Plans or MA-PDs. We did not assess all
                    requirements in the guidelines because some requirements, such as
                    Internet marketing, were outside the scope of the study. Furthermore,
                    we did not analyze certain elements because we were unable to clearly
                    interpret the guidelines for these elements.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-01-06-00050    M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   8
Δ       F I N D I N G S



CMS’s oversight for PDP marketing materials is             CMS’s guidelines outline numerous
                                      limited              strategies to oversee marketing
                                                           materials. These include model
                      documents, retrospective reviews of file & use materials, marketplace
                      reviews, audits, use of material ID numbers, and reviews of materials in
                      alternative formats or non-English languages.
                      CMS promotes file & use but has yet to complete a retrospective review of
                      file & use marketing materials
                      Sponsors “are strongly encouraged to use file & use for all marketing
                      materials qualified under this process.”26 Indeed, of the materials that
                      sponsors used for calendar year 2007, 53 percent were submitted under
                      file & use.27
                      However, at the time of our review, CMS had not yet completed a
                      retrospective review to determine whether any file & use materials
                      followed the guidelines. In early 2007, CMS began such a retrospective
                      review for file & use marketing materials used in 2006 by both PDPs
                      and MA plans. CMS did not complete this review until April 2008.28
                      CMS may terminate a sponsor’s file & use privileges if it determines
                      that the file & use materials do not meet the guidelines.29 Because CMS
                      did not complete its first retrospective review until April 2008, it was
                      unable to determine whether any sponsors should have their file & use
                      privileges revoked until more than 2 years after Medicare Part D began.
                      CMS completed standard reviews of marketing materials on a timely basis
                      but those reviews lack consistency across regions
                      Under CMS’s standard review process, CMS regional office staff must
                      review marketing materials within either a 10-day or 45-day timeframe,
                      depending on the material. Reviewers met these timeframes 96 percent
                      of the time for 10-day reviews and 99.7 percent of the time for 45-day


                          26   CMS, “Medicare Marketing Guidelines,” p. 98.
                          27
                           OIG analysis of CMS data from PDP marketing material reviews downloaded from the
                      HPMS on November 14, 2007. This figure refers to all types of marketing materials
                      submitted to CMS for PDPs offered in calendar year 2007. The percentage of materials
                      submitted as file & use is based on the number of marketing materials with a status of
                      accepted, approved, deemed, or populated template. This percentage excludes disapproved,
                      pending, or withdrawn materials.
                          28 CMS provided OIG with the results of the 2006 retrospective review, dated April 2008,
                      in May 2008.
                          29   CMS, “Medicare Marketing Guidelines,” p. 100.



    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                9
F   I N D I N G        S


                      reviews.30 Of the 11,791 materials reviewed, just 47 were not reviewed
                      in the appropriate timeframes and were deemed approved.31
                      Although CMS reviews almost all PDP marketing materials submitted
                      for standard review within the established timeframes, CMS has not
                      reviewed materials consistently. In 2000, an OIG report recommended
                      that CMS use protocols for reviewing marketing materials.32 However,
                      CMS still lacks standardized protocols for reviewers to follow, even
                      though its staff in nine regional offices review PDP marketing
                      materials. A study completed by a CMS contractor in January 2008
                      found inconsistencies in the reviews of marketing materials from 2006
                      and recommended that CMS use protocols to ensure consistent and
                      efficient reviews of marketing materials.33
                      CMS has rarely used audits and marketplace reviews to oversee marketing
                      materials
                      None of the performance audits that CMS had conducted at the time of
                      our review included audit elements pertaining to marketing materials.
                      When CMS schedules the audits, it selects the chapters from the PDP
                      Sponsor Audit Guide that it will cover. As of September 2007, CMS had
                      conducted 11 audits that reviewed elements from the chapter on
                      Marketing and Beneficiary Information. These audits covered only
                      those elements concerning sales brokers and notifying beneficiaries of
                      formulary changes, but not elements concerning marketing materials.34
                      In addition, even though CMS describes three different types of
                      marketplace reviews in its guidelines, we were unable to determine how
                      many of these reviews it had conducted based on information that CMS
                      officials provided.35 According to CMS officials, the guidelines included


                        30 OIG analysis of CMS data from PDP marketing material reviews downloaded from
                      HPMS on November 14, 2007.
                         31 OIG analysis of CMS data from PDP marketing material reviews downloaded from

                      HPMS on November 14, 2007. This figure refers to all types of marketing materials
                      submitted to CMS for PDPs offered in calendar year 2007. Numbers do not include pending
                      or withdrawn materials.
                          32 HHS, OIG, “Medicare Managed Care—1998 Marketing Materials,” OEI-03-98-00271,
                      February 2000.
                          33 CMS, internal study, January 31, 2008.
                         34 Audits covered three elements: MR05 - No Engagement in Activities that Mislead,

                      Confuse, or Misrepresent, MR06 - Plan Responsibility for Persons Employed or Contracted
                      to Perform Marketing, MR09 - Provision of Notices Regarding Formulary Changes. Source:
                      Data from audits provided by CMS, September 2007.
                          35   CMS, “Medicare Marketing Guidelines,” p. 109.



    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS          10
F   I N D I N G        S


                      marketplace reviews to show the breadth of options available to oversee
                      marketing materials. However, CMS has yet to implement these
                      options. For example, CMS officials told us that it has not conducted
                      any onsite reviews because “to date there has been no need to do it.”36
                      Additionally, CMS officials could not identify any instances in which
                      they reviewed marketing materials as a part of complaint
                      investigations.

                      Even though CMS did not use audits and marketplace reviews to
                      oversee marketing materials, CMS views reports from sponsors that
                      monitor the materials of competing PDPs as an effective method of
                      oversight. CMS officials informed us that monitoring by sponsors helps
                      them to oversee file & use materials, such as advertisements, and told
                      us that “follow through on these complaints [from sponsors] has enabled
                      CMS to further reinforce [its] guidance.”37 However, CMS officials could
                      not provide us with the number or type of complaints received from
                      sponsors monitoring each other.
                      The tracking system for marketing materials has shortcomings
                      The guidelines require all marketing materials to include a material ID
                      and state that it “must be entered into HPMS in the same manner that
                      it appears on the material.”38 CMS uses this unique number to track
                      the material and to locate it in the HPMS. CMS officials told us that
                      the material ID enables beneficiaries to identify materials when they
                      have complaints or questions. If CMS is unable to locate the material
                      based on its material ID, it cannot easily access the material for
                      oversight purposes.

                      Material IDs from 45 percent of the materials we reviewed failed to
                      match material IDs in the HPMS. If the material ID number present on
                      the material does not match the material ID number in the HPMS,
                      CMS cannot readily locate the material. In addition, 21 percent of all
                      material IDs did not follow the proper format (see Table 2 on page 12;
                      also see Appendix B for point estimates and confidence intervals).




                        36 CMS, written response to OIG’s request for information on oversight of PDP marketing

                      materials, September 20, 2007.
                          37   Ibid.
                          38   CMS, “Medicare Marketing Guidelines,” p. 107.



    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS           11
 F    I N D I N G        S            





             TABLE 2         Material                                                Percentage of Material    Percentage of Material
                                                                                    IDs That Did Not Match    IDs That Did Not Follow
       Percentage of
                                                                                   Material IDs in the HPMS            Proper Format
     Material IDs Not
Matching the HPMS          Advertisements                                                             42%                       14%
 and Not Following         Comprehensive Formulary                                                    53%                       32%
      Proper Format        Enrollment Form                                                            40%                       18%
                           Pharmacy Directory                                                         48%                       40%
                           Summary of Benefits                                                        51%                       19%
                                 All materials                                                        45%                       21%
                        Source: OIG analysis of PDP marketing materials, 2007.



                        Finally, the material ID system does not uniformly identify which
                        materials are written in non-English languages or alternative formats.
                        CMS does not specify how a plan should indicate a non-English
                        language material or a material in an alternative format. According to
                        CMS officials, some regional offices request that sponsors use a suffix on
                        their material ID numbers to indicate that a material is written in
                        Spanish. Except for these regional offices’ requests, CMS lacks a
                        systematic way to track materials in non-English languages or
                        alternative formats.

                        Without a specific means to identify the materials, CMS is unable to
                        readily identify materials available in non-English and alternative
                        formats. Lacking the ability to easily identify these materials impedes
                        CMS’s ability to monitor the content of the materials through a
                        verification review.


   CMS’s model documents are not consistent                CMS created model documents to
  with its guidelines, resulting in problems with          streamline the process for PDP
                        PDP marketing materials            sponsors to create marketing
                                                           materials and for CMS to review
                        these materials. These model documents include models for the
                        enrollment form, comprehensive formulary, and pharmacy directory, as
                        well as the standardized SB.
                        Low Income Subsidy information is less comprehensive than required
                        Beneficiaries with limited income and assets are eligible to receive
                        assistance to pay for the out-of-pocket costs associated with their Medicare
                        Part D coverage through the Low Income Subsidy (LIS).39 The guidelines

                            39   42 U.S.C. § 1395w-114.



      OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                                12
F    I N D I N G        S


                       require the summary of benefits to include specific information to help
                       beneficiaries determine whether they qualify for the LIS. This
                       information directs beneficiaries to 1-800-MEDICARE, the Social Security
                       Administration (SSA), or their State Medicaid office.40 To qualify for the
                       LIS based on income and assets, beneficiaries must apply through SSA or
                       their State Medicaid office.41

                       However, the standardized SB directs beneficiaries to 1-800-MEDICARE
                       only (see Table 3). Consequently, 95 percent of summaries of benefits omit
                       the language in the guidelines directing beneficiaries to SSA or their State
                       Medicaid Office. A 2006 OIG study found that CMS had significant
                       difficulties in identifying beneficiaries who qualify for the LIS.42 By
                       omitting the two agencies that can determine whether beneficiaries
                       qualify for the LIS based on income and assets, CMS misses an
                       opportunity to convey this information to beneficiaries.



            TABLE 3         Required Language From CMS Marketing                             Language From CMS’s Standardized SB
                            Guidelines
     Comparison of
     CMS Marketing        All Part D plan preenrollment marketing materials                         “If you qualify for extra help with your
     Guidelines and       detailing eligibility requirements, monthly                             Medicare prescription drug plan costs,
    Standardized SB       premiums and other member costs for Part D                           your premium and costs at the pharmacy
Language for LIS          benefits must include the following language in                     will be lower. When you join [PDP name],
                          paragraph or bullet form:                                            Medicare will tell us how much extra help
                          “You may be able to get extra help to pay for your                  you are getting. Then we will let you know
                          prescription drug premiums and costs. To see if                         the amount you will pay. If you are not
                          you qualify for getting extra help, call:                             getting this extra help you can see if you
                             1-800-MEDICARE (1-800-633-4227).                                           qualify by calling 1-800-Medicare
                                 TTY/TDD users should call 1-877-486-2048,                    (1-800-633-4227). TTY/TTD users should
                                 24 hours a day/7days a week);                                                        call 1-877-486-2048.”
                             The Social Security Administration at
                                 1-800-772-1213 between 7 a.m. and 7 p.m.,
                                 Monday through Friday. TTY/TDD users
                                 should call, 1-800-325-0778; or
                             Your State Medicaid Office”
                       Source: CMS Medicare Marketing Guidelines, p. 35, and standardized SB.




                           40   CMS, “Medicare Marketing Guidelines,” p. 35.
                           41 42 U.S.C. § 1395w-114(a)(3)(B). Beneficiaries who receive full Medicaid benefits,
                       Supplemental Security Income benefits, or who are enrolled in a Medicare Savings Program
                       automatically qualify for the Low Income Subsidy. See CMS, “Medicare & You 2008,” p. 76.
                         42 HHS, OIG, “Identifying Beneficiaries Eligible for the Medicare Part D Low-Income

                       Subsidy,” OEI-03-06-00120, November 2006.



     OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                                   13
F   I N D I N G        S


                      Enrollment information lacks some required elements
                      According to the Enrollment Guidelines, “[t]he PDP sponsor’s
                      enrollment vehicle(s) must include information that the individual
                      acknowledges” when enrolling in a PDP.43 These acknowledgments
                      include agreeing to follow the rules of the PDP and acknowledging the
                      PDP’s appeals process, among others.44 The absence of this information
                      can result in beneficiaries being unaware of situations that could lead to
                      a lack of coverage or enrollment in the wrong plan.

                      However, the model enrollment form does not include all of the
                      elements listed in the Enrollment Guidelines, which likely led to their
                      absence in enrollment forms.45 Most notably, all of the enrollment
                      forms lacked the required information explaining that if the beneficiary
                      enrolls in more than one plan, the last form signed will be the plan to
                      take effect.46 Further, 88 percent of enrollment forms for calendar year
                      2007 did not explain that enrollment in a PDP automatically disenrolls
                      the beneficiary from any other PDP, MA plan, or PACE plan in which
                      the beneficiary is enrolled.47 48 Likewise, 88 percent of enrollment forms
                      do not explain the expected effective date of enrollment in the PDP.49
                      Additionally, the guidelines require all preenrollment materials to
                      include a statement informing beneficiaries that the PDP contracts with
                      the Federal Government.50 Yet, this statement is missing on the model
                      enrollment form. Consequently, 69 percent of enrollment forms failed to
                      include this statement.
                      Alternative format statements are missing
                      The guidelines require both the enrollment form and the summary of
                      benefits to include a statement that the material is available in


                          43 CMS, “Enrollment Guidelines,” section 30.1. 

                          44 Ibid. 

                          45 Because we were unable to match all material ID numbers from marketing materials 

                      to HPMS data, we cannot determine whether sponsors used CMS’s model to create their
                      enrollment forms.
                          46   CMS, “Enrollment Guidelines,” sections 20 and 30.1.
                          47 CMS,“Enrollment Guidelines,” section 30.1. PACE stands for Program of All Inclusive
                      Care for the Elderly, which provides both social and medical services for the elderly.
                          48 In June 2007, CMS released a revised model enrollment form. The revised model now
                      includes the statement “I can only be in one Medicare prescription drug plan at a time – if I
                      am currently in a Medicare prescription drug plan, my enrollment in <PDP Name> will end
                      that enrollment.”
                          49   CMS, “Enrollment Guidelines,” section 30.1. 

                          50   CMS, “Medicare Marketing Guidelines,” p. 33.




    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                14
F   I N D I N G        S


                      alternative formats, such as Braille or audio tape.51 However, the model
                      enrollment form lacks this statement, as do 85 percent of enrollment
                      forms. In contrast, the standardized SB includes a statement
                      concerning the availability of alternative formats, and more than
                      99 percent of summaries of benefits include the statement.
                      Hours of operation and telephone numbers are missing
                      Generally, the guidelines require that marketing materials include
                      operating hours and TTY/TDD numbers where all phone numbers are
                      present.52 These requirements apply to all PDP customer service
                      numbers, as well as to 1-800-MEDICARE. Providing this contact
                      information ensures that beneficiaries with hearing difficulties know
                      how to obtain additional information that they may need.

                      However, CMS’s model documents omit the hours of operation and
                      TTY/TDD phone numbers.53 Our previous work also identified these
                      same problems with MA marketing materials.54 Table 4 on page 16
                      shows that the model enrollment form and the standardized SB did not
                      include the hours of operation for 1-800-MEDICARE in each place
                      where the material listed the number. As a result, 85 percent of
                      enrollment forms for calendar year 2007 and 86 percent of summaries of
                      benefits did not include the hours of operation in all places where
                      1-800-MEDICARE is listed.

                      Likewise, the model enrollment form failed to include the Medicare
                      TTY/TDD number in each place where 1-800-MEDICARE is listed, and
                      37 percent of enrollment forms lacked this number where required. On
                      the other hand, the model comprehensive formulary included TTY/TDD
                      numbers in conjunction with all other telephone numbers and less than
                      1 percent of comprehensive formularies lacked those numbers.




                          51 CMS, “Medicare Marketing Guidelines,” p. 92.
                          52 TTY and TDD numbers are telecommunications devices for deaf persons. CMS does
                      not require certain advertisements, such as outdoor advertising, to follow these
                      requirements. See CMS, “Medicare Marketing Guidelines,” p. 21.
                          53 In June 2007, CMS released a revised model enrollment form. The revised model now
                      includes the hours of operation and TTY/TDD phone number for 1-800-MEDICARE.
                          54 HHS, OIG, “Medicare Advantage Marketing Materials for Calendar Year 2005,”
                      OEI-01-05-00130, August 2006.



    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS            15
F   I N D I N G          S     




             TABLE 4               Guidelines                                                 Type of Material    Included   Percentage
                                                                                                                 in Model?      Missing
       Comparison of
                                                                                                                                  From
          Guidelines,                                                                                                         Marketing
       Materials, and                                                                                                          Materials
             Required          Organizations must also list the                              Enrollment Form          No           85%
          Information          hours of operation for 1-800-
                                                                                         Summary of Benefits          No           86%
                               MEDICARE anytime the organization
                               lists the 1-800-MEDICARE number                                Comprehensive           Yes           0%
                                                                                                   Formulary
                               The Medicare TTY/TDD number                                   Enrollment Form          No           37%
                               must appear in conjunction with
                               1-800-MEDICARE
                               TTY/TDD numbers must appear in                                Comprehensive            Yes         < 1%
                               conjunction with all other phone                                  Formulary
                               numbers
                             Source: OIG review of PDP marketing materials, 2007.




                             Guidelines and model documents do not match in other aspects
                             The guidelines require that some preenrollment materials, such as
                             summaries of benefits and enrollment forms, inform beneficiaries who
                             have drug coverage through MA plans that they may not duplicate
                             Medicare drug coverage with PDPs. Those beneficiaries would have to
                             disenroll from their MA plan before enrolling in a PDP. As Table 5 on
                             page 17 shows, the standardized SB language fails to explain this
                             potential duplication in the same detail as the guidelines.

                             In addition, the standardized SB language assumes that beneficiaries
                             have already determined whether they qualify for the LIS, rather than
                             informing them that they “may be able to get extra help to pay for
                             [their] prescription drug premiums and costs” as required by the
                             guidelines.55 (See Table 3 on page 13.) Accordingly, 98 percent of
                             summaries of benefits lack that statement. As previously noted, a 2006
                             OIG study found that CMS had significant difficulties in identifying
                             beneficiaries who qualify for the LIS.56 By using the language in the
                             standardized SB, CMS misses an opportunity to explicitly convey the
                             availability of the LIS.




                                   55   CMS, “Medicare Marketing Guidelines,” pp. 34–35.
                                   56
                                 HHS, OIG, “Identifying Beneficiaries Eligible for the Medicare Part D Low-Income
                             Subsidy,” OEI-03-06-00120, November 2006.



       OEI-01-06-00050       M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                              16
 F     I N D I N G       S            





            TABLE 5        Required Elements From CMS Marketing                                             Language From CMS’s
                           Guidelines                                                                            Standardized SB
Comparison of CMS
           Marketing      “If enrolled in an MA coordinated care (HMO or                         “Eligible individuals may only enroll
      Guidelines and      PPO) plan or an MA PFFS plan that includes                              in one Medicare Prescription Drug
     Standardized SB      Medicare prescription drugs, the enrollee may not                            Plan at a time and may not be
        Language for      enroll in a PDP unless they disenroll from the HMO,                      enrolled in a Medicare Advantage
          Enrollment      PPO or MA PFFS plan.”                                                 Plan (HMO, PPO), unless they are a
                                                                                                   member of Medicare Private-Fee-
         Information
                          “Enrollees in a private fee-for-service plan (PFFS)                    For Services plan or are enrolled in
                          that does not provide Medicare prescription drug                                        an 1876 Cost Plan.”
                          coverage, or an MA Medical Savings Account
                          (MSA) plan may enroll in a PDP. Enrollees in an
                          1876 Cost plan may enroll in a PDP.”
                        Source: CMS Medicare Marketing Guidelines, p. 37, and standardized SB.




          Overall, PDP marketing materials did not            Most marketing materials did not
                consistently meet CMS guidelines              meet all elements of CMS’s
                                                              guidelines. The elements not met
                        comprise the omissions from the model documents, as discussed above,
                        as well as problems with the language created by sponsors. We
                        identified an array of problems that reflect the range of requirements
                        included in the guidelines. This range covers details about PDP
                        benefits and rules to requirements for font size for footnotes. Below, we
                        discuss the extent and nature of these problems.
                        Most marketing materials did not follow the guidelines for one or more
                        elements
                        Overall, 85 percent of marketing materials failed to meet at least one
                        element of the guidelines. This includes the aforementioned problems
                        that stem from the model documents, as well as other problems that we
                        found (see Table 6).


             TABLE 6         Material                                                     Percentage of Materials Not Following CMS
                                                                                               Guidelines for One or More Elements
 Percentage of PDP
           Marketing       Enrollment Form                                                                                      100%
Materials That Fail        Summary of Benefits                                                                                  100%
        To Meet CMS        Comprehensive Formulary                                                                               96%
 Guidelines for One
                           Pharmacy Directory                                                                                    86%
  or More Elements
                           Advertisements                                                                                        73%
                                All materials                                                                                    85%
                        Source: OIG analysis of PDP marketing materials, 2007.




      OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                                  17
 F   I N D I N G        S            



                       Enrollment forms and summaries of benefits had the highest average
                       percentage of elements that did not meet the guidelines.57 On average,
                       enrollment forms did not meet 10 of the 60 elements we reviewed, and
                       summaries of benefits did not meet 9 of the 51 elements. CMS
                       identifies these two materials, as well as other materials that do not
                       qualify for file & use, as posing a greater risk to beneficiaries if they
                       contain information “inaccurate in any way.”58 In contrast,
                       comprehensive formularies, pharmacy directories, and advertisements
                       had fewer problems, with an average of one or two elements that did not
                       meet the guidelines (see Table 7; also see Appendix C for ranges of
                       elements not met for each type of material).



            TABLE 7           Material                                    Average Number of            Number of     Average Percentage
                                                                               Elements Not             Elements         of Elements Not
Average Number and
                                                                               Meeting CMS           Reviewed for           Meeting CMS
      Percentage of                                                               Guidelines           Each Type               Guidelines
   Elements of CMS                                                                                     of Material
Guidelines That PDP
                             Enrollment Form                                             10                    60                   17%
 Marketing Materials
        Fail To Meet         Summary of Benefits                                          9                    51                   18%
                             Comprehensive Formulary                                      2                    39                       5%
                             Pharmacy Directory                                           2                    27                       8%
                             Advertisements                                               1                    23                       5%
                         Source: OIG analysis of PDP marketing materials, 2007.



                       Although all elements of the guidelines are important, some can have a
                       greater impact on the accuracy of information disseminated to
                       beneficiaries than others. For example, missing information about
                       obtaining prescriptions at network pharmacies could affect beneficiaries
                       more than footnote placement. Below, we describe three common
                       problems found in PDP marketing materials.
                       Cobranding requirements were often unmet
                       CMS defines cobranding as a business relationship between the sponsor
                       of a Medicare plan and another entity, such as a pharmacy.59 The
                       guidelines require that when cobranding is present on a marketing
                       material, it must note that other pharmacies are available in the


                         57 Statistically significant at the 95-percent confidence level in a two-tailed multiple
                       comparison test employing a Bonferroni adjustment.
                           58   CMS, “Medicare Marketing Guidelines,” p. 99.
                           59   CMS, “Medicare Marketing Guidelines,” p. 6.



     OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                                 18
F   I N D I N G        S


                      sponsor’s network.60 Yet, 79 percent of advertisements with cobranding
                      did not include this statement. Without this statement, beneficiaries
                      might believe that they may use only those pharmacies whose logos are
                      present on the marketing material.
                      Processes for mail order delays are frequently missing
                      The guidelines require that pharmacy directories describe the process
                      for a beneficiary to obtain a prescription if the mail order service is
                      delayed.61 However, 42 percent of pharmacy directories did not describe
                      this process. Of these, 85 percent stated that the sponsor would call the
                      beneficiaries in the case of a delay rather than informing them of a
                      specific action they could take. This may hinder beneficiaries’ ability to
                      obtain prescriptions on time. Additionally, when describing mail order
                      services, 31 percent of pharmacy directories did not include a toll-free
                      number and TTY/TDD number to call with questions as required by the
                      guidelines.62
                      Some indexes required by CMS are missing
                      Comprehensive formularies must include an alphabetical index that
                      directs the beneficiary to the page containing complete information for a
                      drug. Yet, 17 percent of comprehensive formularies lacked an index.
                      Because the comprehensive formulary organizes all covered drugs by
                      therapeutic class (such as cardiovascular agents), an index may help
                      beneficiaries find information about their drugs. Its omission could hinder
                      beneficiaries’ ability to find the appropriate drug.63




                          60   CMS, “Medicare Marketing Guidelines,” p. 12.
                          61   CMS, “Medicare Marketing Guidelines,” p. 55.
                          62   CMS, “Medicare Marketing Guidelines,” p. 56.
                          63   CMS, “Medicare Marketing Guidelines,” pp. 60–61.



    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   19
Δ   R E C O M M E N D A T I O N S



                  Despite establishing numerous strategies to oversee PDP marketing
                  materials, CMS has conducted limited oversight for these materials.
                  Failure to effectively oversee PDP marketing materials has likely
                  contributed to the problems that we found with the materials. These
                  problems occurred in specific areas, which corresponded largely with
                  discrepancies between CMS’s model documents and its guidelines.
                  Information inaccurately conveyed in or omitted from the materials may
                  affect a beneficiary’s ability to make an informed decision about
                  enrollment or to access resources, services, or drugs. We also found
                  problems with language created by sponsors.
                  We recognize that Part D is a new and complex program; however, CMS
                  has had years of experience with the marketing materials for its
                  managed care program. We identified similar problems with marketing
                  materials for Medicare + Choice and MA plans in 2000 and 2006.

                  To improve CMS oversight and ensure that PDPs provide accurate
                  marketing materials, we recommend that CMS:
                  Revise model documents to ensure consistency between its model
                  documents and guidelines
                  This reiterates our recommendation from 2000, when we called for CMS
                  to provide accurate model documents to Medicare + Choice sponsors.64
                  By ensuring that the model materials and the standardized SB follow
                  its guidelines, CMS would provide more accurate guidance to plans and
                  ultimately beneficiaries. Since the time of this review, CMS has made
                  some progress toward this end. We recommend that it continue this
                  effort.
                  Develop protocols for the review of marketing materials
                  Our 2000 report called for developing standard review instruments for
                  Medicare managed care marketing materials, which CMS has not yet
                  implemented.65 We continue to recommend that CMS create such
                  protocols to use for the review of all marketing materials. These
                  protocols would assist CMS’s reviewers in ensuring that marketing
                  materials include all required elements, such as processes for
                  beneficiaries to follow when using mail-order pharmacies. Additionally,


                      64
                      HHS, OIG, “Medicare Managed Care—1998 Marketing Materials,” OEI-03-98-00271,
                  February 2000.
                      65   Ibid.



OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS    20
R   E   C   O   M     M   E       N      D      A      T     I      O     N   S



                              these protocols could be included in the guidelines so that PDP sponsors
                              may use them to ensure their materials include all required elements.
                              Conduct and complete more frequent retrospective reviews of file & use
                              materials to monitor these materials
                              In the three cycles of marketing materials since the implementation of
                              the Part D program, CMS had yet to complete quality monitoring
                              activities for file & use materials as of April 1, 2008. Performing
                              retrospective reviews on a more frequent basis (such as the every
                              6-month timeframe outlined in the guidelines) would provide CMS with
                              more timely information to ensure that file & use materials meet the
                              guidelines.
                              Enforce the use of the current tracking system and enhance it to include an
                              identifier for marketing materials written in non-English languages and
                              alternative formats
                              These steps would increase CMS’s ability to track specific materials, which
                              would help CMS oversee them and respond to complaints about them.
                              CMS officials told us that the agency will consider developing a system to
                              identify non-English materials. We recommend that the agency proceed
                              with this effort.



                              AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                              RESPONSE
                              CMS concurred with all four of our recommendations. In its comments
                              on the draft report, CMS noted that it had implemented steps to
                              improve its oversight of marketing materials and identified seven areas
                              for improving the review process for marketing materials. These areas
                              include developing standardized review protocols, piloting a national
                              retrospective review process, updating model documents to include all
                              requirements from the guidelines, focusing reviews on marketing
                              materials that are most critical to beneficiary understanding,
                              developing checklists for PDP sponsors to use when creating marketing
                              materials, developing electronic attestations of material accuracy, and
                              enhancing HPMS.

                              CMS also noted that it had made corrections to its model enrollment
                              form in June 2007 and had completed its first retrospective review of
                              file & use materials. We amended the report to indicate that CMS had
                              completed these tasks but that both were outside the period of our
                              review.

    OEI-01-06-00050           M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   21
R   E C O        M M E N D A T                             I O N        S


                      In addition, CMS noted that it focuses its review of marketing materials
                      on elements it considers most critical to beneficiary understanding, and
                      not all elements contained in the guidelines. However, CMS’s
                      guidelines do not distinguish between critical and noncritical elements.
                      Therefore, we reviewed marketing materials based on the requirements
                      for each type of material detailed in CMS’s marketing and enrollment
                      guidelines.

                      The complete text of CMS’s comments can be found in Appendix D.




    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   22
Δ      A P P E N D I X                                  ~        A



                  METHODOLOGY
                  Scope
                  We assessed the Centers for Medicare & Medicaid Services’ (CMS)
                  oversight of Prescription Drug Plan (PDP) materials based on the
                  oversight strategies outlined in its guidelines. We also determined
                  whether five types of marketing materials from a sample of PDPs
                  offered in calendar year 2007 met CMS’s guidelines. These materials
                  included selected advertising materials (newspaper advertisements,
                  marketing posters, and fliers), summaries of benefits, comprehensive
                  formularies, enrollment forms, and pharmacy directories. These
                  represent materials that would be used by beneficiaries prior to and
                  after enrolling in a PDP.
                  Data Sources and Analysis
                  Our evaluation relied on four sources: CMS guidelines and regulations,
                  information from CMS officials, data from the Health Plan Management
                  System (HPMS), and 2007 PDP marketing materials.
                  CMS Oversight of Marketing Materials
                  We assessed CMS’s oversight of PDP marketing materials through its
                  guidance, information from CMS officials, and data from the HPMS.
                  CMS guidelines. We reviewed CMS documents that outline its oversight
                  strategy for marketing materials. These documents included the
                  marketing guidelines, as well as relevant memoranda and guidance CMS
                  issued, the Enrollment Guidelines, and the “PDP Sponsor Audit Guide
                  Version 1.0,” April 10, 2006.

                  Information from CMS officials. To supplement the data analysis, we
                  conducted structured interviews with CMS officials concerning the
                  agency’s oversight activities to date. Additionally, in August 2007, we
                  sent a written request to CMS officials regarding details on file & use
                  retrospective reviews, marketplace reviews, audits, and non-English or
                  alternative format materials. In this request, we asked for documents
                  that provided specific details on oversight activities, including their
                  dates, the PDP sponsors examined, and their outcomes.

                  Data from the HPMS. We obtained data from the HPMS on reviews of
                  marketing materials for calendar year 2007. We used SAS® to match
                  the unique identification number (hereafter referred to as material ID)
                  on the marketing materials we reviewed to the material IDs of

OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   23
A    P   P E N D      I X            ~            A


                      marketing materials reviewed by CMS. We also used SAS® to assess
                      timeframes for marketing material reviews. Additionally, we examined
                      data from the HPMS concerning the scheduling of audits.
                      Review of Marketing Materials
                      Sample design. In calendar year 2007, sponsors offered 1,866 PDPs in
                      the 50 States and the District of Columbia. After consulting with other
                      components of the Office of Inspector General (OIG), we reduced the
                      number of PDPs under consideration to 1,763. We stratified the PDPs
                      into two strata based on the total number of PDPs offered by each
                      sponsor. We selected 35 PDPs from the stratum of sponsors offering
                      4 or fewer PDPs, and 80 from the stratum of sponsors offering more
                      than 4 PDPs (see Table 8 for breakdown of strata).

           TABLE 8        Stratum Definitions                        Number of     Number of        Number of     Number of
                                                                       Plans in     Sponsors          Plans in   Sponsors in
             Strata
                                                                     Population             in        Sample        Sample
    Characteristics                                                                Population

                         Plans from sponsors                                 92           40               35            25
                         offering total of four
                         plans or fewer

                         Plans from sponsors                              1,671           25               80            20
                         offering total of five
                         or more plans

                            Total                                         1,763           65              115            45

                       Source: OIG collection of PDP marketing materials, 2007.




                      Marketing materials collection. In April 2007, we contacted the PDPs in
                      our sample and requested the five types of marketing materials listed in
                      the Scope section for each PDP offered in 2007. We received at least one
                      type of marketing material from each of the 115 PDPs in our sample
                      (see Table 9 on page 24). Some sponsors sent multiple materials for a
                      PDP, and we included all of the materials in our review. Each type of
                      material had a different response rate and sample size. We estimated
                      proportions for various characteristics of the materials. We expressed
                      these proportions as percentages and projected them to the population
                      of materials for all plans with an expected absolute precision no greater
                      than 10 percent at the 95-percent confidence level assuming a
                      90-percent plan response rate.




    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                         24
A    P   P E N D       I X            ~            A              





           TABLE 9        Type of Material                                        Number of PDPs         Response   Sample Size of
                                                                                  That Responded             Rate       Materials
    Response Rates
and Total Number
                         Summary of Benefits                                                 115            100%             122
     of Materials in
             Sample      Pharmacy Directories                                                112             97%             144

                         Comprehensive Formularies                                           115            100%             122

                         Enrollment Forms                                                    113           100%*             121

                         Advertisements                                                        71          84%**             507

                       *Response rate is based on 113 PDPs because 2 PDP responded that enrollment forms were not produced for

                       calendar year 2007. 

                       **Response rate is based on 85 PDPs because 30 sponsors responded that they did not produce 

                       advertisements.

                       Source: OIG collection of PDP marketing materials, 2007. 





                       Material review. We received training in March 2007 from staff in CMS’s
                       New York regional office. This training covered an overview of the
                       marketing guidelines, guidelines for specific types of marketing
                       materials, and the region’s process for reviewing marketing materials.

                       After the training, we developed and used five review guides, one for
                       each type of marketing material. We divided CMS’s guidelines into
                       separate elements for each material. The review guides included all
                       requirements for each type of material based on the marketing
                       guidelines and the Enrollment Guidelines. During the course of our
                       review and analysis, we eliminated certain elements because we were
                       unable to clearly interpret the guidelines for these elements.

                       Four analysts reviewed the marketing materials. We reviewed each
                       type of marketing material three or more times using the elements in
                       the appropriate review guide. We entered the results into a Microsoft
                       Access® database and used SAS® and SAS®-callable SUDAAN to
                       analyze data from this review. During our review process, we
                       performed quality assurance reviews to ensure uniform interpretation
                       of the elements. These analyses included consistency checks by date of
                       review, reviewer, and type of material.

                       We also reviewed the standardized SB, as well as model documents for
                       the enrollment form, the comprehensive formulary, and the pharmacy
                       directory. We assessed them against the guidelines by using the review
                       guides.

     OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR       MEDICARE PRESCRIPTION DRUG PLANS                          25
 Δ         A P P E N D I X                                        ~           B


Estimates and Confidence Intervals


    Estimates Discussed in Finding 1: Centers for Medicare & Medicaid Services’ (CMS) Oversight for PDP Marketing
    Materials Is Limited

                                                                                                           Point
   Estimate Description                                                                                Estimates    95-Percent Confidence Intervals
   The unique identification numbers (material IDs) on materials did not
                                                                                                          45.4%                       40.0%–50.8%
   match the material ID in the Health Plan Management System (HPMS).
   Material IDs did not follow the proper format.                                                         21.1%                       14.8%–27.3%
   The material ID on the advertisements directory did not match a material
                                                                                                          42.3%                       36.8%–47.8%
   ID in the HPMS.
   The material ID on the comprehensive formulary did not match a material
                                                                                                          53.2%                      43.0%–-63.5%
   ID in the HPMS.
   The material ID on the enrollment form did not match a material ID in the
                                                                                                          39.6%                       29.6%–49.7%
   HPMS.
   The material ID on the pharmacy directory did not match a material ID in
                                                                                                          47.7%                      36.8%–-58.7%
   the HPMS.
   The material ID on the summary of benefits did not match a material ID in
                                                                                                          51.3%                       41.1%–61.5%
   the HPMS.
   The material ID on the advertisements did not follow the proper format.                                13.8%                        7.8%–19.7%
   The material ID on the comprehensive formulary did not follow the proper
                                                                                                          32.4%                       22.8%–42.0%
   format.
   The material ID on the enrollment form did not follow the proper format.                               18.4%                       10.6%–26.2%

   The material ID on the pharmacy directory did not follow the proper format.                            39.7%                       29.5%–50.1%
   The material ID on the summary of benefits did not follow the proper
                                                                                                          18.8%                       11.0%–26.6%
   format.

   Estimates Discussed in Finding 2: CMS’s Model Documents Are Not Consistent With Its Guidelines


   The summary of benefits did not direct the beneficiary to either the State
                                                                                                          94.9%                      88.1%–97.9%*
   Medicaid agency or Social Security Administration.
                                                                                                                   Unable to quantify sampling error
   The enrollment form did not include a statement that if the beneficiary
                                                                                                           100%     because review outcomes for all
   enrolls in more than one plan, the last choice will be the one to take effect.
                                                                                                                   sample materials were the same
   The enrollment form did not explain that enrollment in a PDP automatically
   disenrolls the beneficiary from any other PDP, MA plan, or Program of All                              88.3%                       81.5%–95.0%
   Inclusive Care for the Elderly (PACE) plan.
   The enrollment form does not explain the expected date of enrollment in
                                                                                                          88.0%                       81.2%–94.7%
   the PDP.
   The enrollment form does not state that the PDP contracts with the
                                                                                                          69.3%                       59.9%–78.7%
   Federal Government.
   The enrollment form did not include the statement that it is available in
                                                                                                          84.7%                       77.2%–92.3%
   alternative formats.
   The summary of benefits included the statement that it is available in
                                                                                                          99.6%                      98.9%–99.8%*
   alternative formats.
   * Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a
   small or large number of sample elements possess the characteristic of interest.
    Source: Office of Inspector General (OIG) analysis of marketing material reviews, 2007.




      OEI-01-06-00050             M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                              26
A   P   P E N D           I X          ~          B            





         Estimates Discussed in Finding 2: CMS’s Model Documents Are Not Consistent With Its Guidelines (continued)


                                                                                                                Point
        Estimate Description                                                                                Estimates       95-Percent Confidence Intervals
        The enrollment form did not include hours of operation with
                                                                                                               84.6%                          77.0%–92.1%
        1-800-MEDICARE in all places.
        The summary of benefits did not include hours of operation with
                                                                                                               86.4%                          79.3%–93.4%
        1-800-MEDICARE in all places.
        The enrollment form did not include a TTY/TDD number in conjunction
                                                                                                              37.5%**                         27.7%–47.3%
        with all 1-800-MEDICARE appearances.
        The comprehensive formulary did not include a TTY/TDD number in
                                                                                                                0.1%                          0.03%–0.7%*
        conjunction with all customer service number appearances.
                                                                                                                           Unable to quantify sampling error
        The comprehensive formulary did not include hours of operation with
                                                                                                                     0%     because review outcomes for all
        1-800-MEDICARE in all places.
                                                                                                                           sample materials were the same
        “You may be able to get extra help to pay for your prescription drug
                                                                                                               98.4%                         93.5%–99.6%*
        premiums and costs” was not included in the summary of benefits.

        Estimates Discussed in Finding 3: PDP Marketing Materials Did Not Consistently Meet CMS Guidelines


        Materials had at least one element that did not meet the guidelines.                                   85.1%                          82.0%–88.2%

                                                                                                                           Unable to quantify sampling error
        The enrollment form had at least one element that did not meet the
                                                                                                                100%        because review outcomes for all
        guidelines.
                                                                                                                           sample materials were the same
                                                                                                                           Unable to quantify sampling error
        The summary of benefits had at least one element that did not meet the
                                                                                                                100%        because review outcomes for all
        guidelines.
                                                                                                                           sample materials were the same
        The comprehensive formulary had at least one element that did not meet
                                                                                                              96.5%**                        89.8%–98.9%*
        the guidelines.
        The pharmacy directory had at least one element that did not meet the
                                                                                                               86.2%                          79.2%–93.2%
        guidelines.
        The advertisements had at least one element that did not meet the
                                                                                                               72.9%                          66.9%–78.9%
        guidelines.
        The mean number of elements that did not meet the guidelines for the
                                                                                                                 10.2                              9.7–10.8
        enrollment form.
        The mean number of elements that did not meet the guidelines for
                                                                                                                     9.0                            8.7–9.3
        summary of benefits.
        The mean number of elements that did not meet the guidelines for the
                                                                                                                     2.0                            1.9–2.2
        comprehensive formulary.
        The mean number of elements that did not meet the guidelines for the
                                                                                                                     2.2                            1.8–2.5
        pharmacy directory.
        * Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a 

        small or large number of sample elements possess the characteristic of interest. 

        **Number is not the same as in the text because of rounding. 

         Source: OIG analysis of PDP marketing material reviews, 2007.





           OEI-01-06-00050             M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                                 27
A   P   P E N D           I X          ~          B            




          Estimates Discussed in Finding 3: PDP Marketing Materials Did Not Consistently Meet CMS Guidelines (continued)

                                                                                                                Point
          Estimate Description                                                                              Estimates      95-Percent Confidence Intervals
          The mean number of elements that did not meet the guidelines for
                                                                                                                     1.1                          1.0–1.3
          advertisements.
          The average percent of elements not meeting the guidelines for
                                                                                                               17.0%                        16.1%–17.9%
          enrollment forms.
          The average percent of elements not meeting the guidelines for
                                                                                                               17.7%                        17.1%–18.3%
          summaries of benefits.
          The average percent of elements not meeting the guidelines for
                                                                                                                5.2%                          4.8%–5.7%
          comprehensive formularies.
          The average percent of elements not meeting the guidelines for pharmacy
                                                                                                                8.1%                          6.8%–9.3%
          directories.
          The average percent of elements not meeting the guidelines for
                                                                                                                4.9%                          4.3%–5.5%
          advertisements.
          Where cobranding was present on the advertisement, the advertisement
          did not include the statement “<Other Pharmacies/Physicians/Providers>                               79.2%                        72.5%–85.9%
          are available in our network.”
          The pharmacy directory did not include the process for beneficiaries to
                                                                                                               41.6%                        31.0%–52.2%
          follow if their mail order prescription was delayed.
          Where the pharmacy directory did not include the process for
          beneficiaries to follow if their prescription was delayed, it stated that the                        85.2%                        74.3%–96.2%
          sponsor will call the beneficiary.
          The mail order section in the pharmacy directory did not include a toll-free
                                                                                                               31.3%                        21.6%–41.0%
          number and a TTY/TDD number.

          The comprehensive formulary did not contain an index.                                                16.6%                         8.8%–24.3%

        Source: OIG analysis of PDP marketing material reviews, 2007.




            OEI-01-06-00050            M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                               28
Δ     A P P E N D I X                             ~             C

Number of Elements Not Meeting the Centers for Medicare & Medicaid Services’ Guidelines in
Each Type of Marketing Material

            TABLE 10 
        Number of Elements Not                        Percentage of Enrollment
                                                                                                         95-Percent Confidence Intervals
                              Met                                                             Forms
            Number of 

    Elements That Did 
                                                                                 Unable to quantify sampling error
             Not Meet 
      0-4                                                                0%       because review outcomes for all
        Guidelines for
                                                                                 sample materials were the same
     Enrollment Form 
       5                                                               11.7%                          5.0%–18.5%
                                                                                                        Unable to quantify sampling error
                             6-7                                                                0%       because review outcomes for all
                                                                                                        sample materials were the same
                             8                                                                0.9%                          0.3%–2.6%*
                             9                                                               21.9%                         13.3%–30.4%
                             10                                                              30.7%                         21.2%–40.2%
                             11                                                               1.9%                          0.6%–6.3%*
                             12                                                              12.0%                          5.6%–18.5%
                             13                                                               5.0%                           0.5%–9.5%
                             14                                                              15.9%                          8.3%–23.4%
                          * Confidence interval calculated using the logit transformation because of poor coverage properties of the
                          standard approximation method when a small number of sample elements possess the characteristic of interest.
                          Source: Office of Inspector General (OIG) analysis of Prescription Drug Plan (PDP) marketing materials, 2007.
                          Based on 60 elements.




            TABLE 11          Number of Elements Not                       Percentage of Summaries
                                                                                                          95-Percent Confidence Intervals
                              Met                                                        of Benefits
            Number of
    Elements That Did                                                                                   Unable to quantify sampling error
             Not Meet        0-3                                                                0%       because review outcomes for all
        Guidelines for                                                                                  sample materials were the same
          Summary of         4                                                                1.2%                           0.2%–7.7%*
              Benefits
                             5                                                                0.3%                           0.1%–0.9%*
                             6                                                                1.2%                           0.2%–7.7%*
                             7                                                               12.6%                           5.8%–19.4%
                             8                                                               15.0%                           7.6%–22.2%
                             9                                                               39.1%                         29.1%–49.1%
                             10                                                              15.5%                           8.2%–22.9%
                             11                                                               7.2%                           1.8%–12.6%
                             12                                                               7.2%                           1.8%–12.6%
                             13                                                               0.6%                           0.3%–1.2%*

                                                                                                        Unable to quantify sampling error
                             14-17                                                              0%       because review outcomes for all
                                                                                                        sample materials were the same
                             18                                                               0.2%                          0.03%–0.7%*
                          * Confidence interval calculated using the logit transformation because of poor coverage properties of the
                          standard approximation method when a small number of sample elements possess the characteristic of interest.
                          Source: OIG analysis of PDP marketing materials, 2007. Based on 51 elements.
       OEI-01-06-00050    M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                                29
 A    P   P E N D      I X            ~            C              





          TABLE 12         Number of Elements Not                        Percentage of Comprehensive
                                                                                                          95-Percent Confidence Intervals
                           Met                                                            Formularies
          Number of
 Elements That Did        0                                                                     3.5%                        1.2%–10.3%*
           Not Meet
                          1                                                                    25.2%                        16.4%–34.1%
      Guidelines for
                          2                                                                    37.8%                        28.0%–47.8%
     Comprehensive
          Formulary       3                                                                    32.4%                        22.7%–42.1%
                          4                                                                     0.9%                         0.5%–1.6%*
                                                                                                         Unable to quantify sampling error
                          5-13                                                                    0%      because review outcomes for all
                                                                                                         sample materials were the same

                          14                                                                    0.2%                        0.03%–0.7%*
                       * Confidence interval calculated using the logit transformation because of poor coverage properties of the standard

                       approximation method when a small number of sample elements posses the characteristic of interest. 

                       Source: OIG analysis of PDP marketing materials, 2007. Based on 39 elements. 





          TABLE 13         Number of Elements Not                             Percentage of Pharmacy
                                                                                                          95-Percent Confidence Intervals
                           Met                                                             Directories
          Number of
 Elements That Did        0                                                                    13.8%                         6.8%–20.8%
           Not Meet
                          1                                                                    30.1%                        20.4%–39.8%
      Guidelines for
                          2                                                                    11.5%                         5.5%–17.5%
Pharmacy Directory
                          3                                                                    18.3%                        10.7%–25.9%
                          4                                                                    24.5%                        14.7%–34.4%
                          5                                                                     0.1%                        0.03%–0.7%*
                          6                                                                     0.6%                         0.2%–1.4%*
                          7                                                                     1.1%                         0.2%–7.3%*
                       * Confidence interval calculated using the logit transformation because of poor coverage properties of the standard

                       approximation method when a small number of sample elements posses the characteristic of interest. 

                       Source: OIG analysis of PDP marketing materials, 2007. Based on 27 elements. 





          TABLE 14         Number of Elements Not
                                                                         Percentage of Advertisements     95-Percent Confidence Intervals
                           Met
          Number of
 Elements That Did        0                                                                    27.1%                        21.1%–33.0%
           Not Meet
                          1                                                                    37.2%                        33.5%–40.9%
      Guidelines for
                          2                                                                    32.8%                        24.9%–40.8%
     Advertisements
                          3                                                                     2.0%                        1.0 % –4.3%*
                          4                                                                     0.4%                         0.2 %–0.8%*
                          5                                                                     0.3%                        0.1 %–2.5% *
                       * Confidence interval calculated using the logit transformation because of poor coverage properties of the standard

                       approximation method when a small number of sample elements posses the characteristic of interest. 

                       Source: OIG analysis of PDP marketing materials, 2007. Based on 23 elements. 





     OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS                                 30
Δ     A P P E N D I X                               ~            D

         Agency Comments




    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   31
A   P   P E N D       I X            ~            D




    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   32
A   P   P E N D       I X            ~            D




    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   33
A   P   P E N D       I X            ~            D




    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   34
A   P   P E N D       I X            ~            D




    OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   35
Δ   A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections in the
                  Boston regional office, and Russell W. Hereford, Deputy Regional
                  Inspector General.

                  Maria Maddaloni served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the Boston
                  regional office who contributed to the report include Bailey G. Orshan
                  and Robyn Sterling; central office staff who contributed include
                  Linda B. Abbott, Kevin Farber, Sandy Khoury, and Megan Ruhnke.




OEI-01-06-00050   M A R K E T I N G M AT E R I A L S   FOR   MEDICARE PRESCRIPTION DRUG PLANS   36
